APPENDIX

App. 1
No. ________
IN THE SUPREME COURT OF
THE STATE OF CALIFORNIA
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

THE PEOPLE OF THE STATE OF CALIFORNIA,
Petitioner,
vs.
SUPERIOR COURT OF
LOS ANGELES COUNTY,
Respondent,
CAL CARTAGE TRANSPORTATION EXPRESS
LLC; CCX2931, LLC; K&R TRANSPORTATION
CALIFORNIA LLC, KRT2931, LLC; CMI
TRANSPORTATION LLC; and CM2931, LLC,
Real Parties in Interest.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

From order of the California Court of Appeal
Second Appellate District, Division 4,
Case No. B304240
California Superior Court, Los Angeles County
Case Nos. BC689320, BC689321, BC689322
Honorable William F. Highberger, Dept. 010, Presiding
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

PETITION FOR REVIEW OF
REAL PARTIES IN INTEREST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

App. 2
(Filed Dec. 1, 2020)
[Counsel for Real Parties in Interest
Listed on Following Page]
*

*

*

A. The Court Of Appeal’s Decision Squarely
Conflicts With Numerous Decisions Around
The Country.
Under the FAAAA, any state law “related to a
price, route, or service of any motor carrier . . . with respect to the transportation of property” is preempted.
(49 U.S.C. § 14501(c)(1).) The Court of Appeal’s holding
that “the ABC test . . . is not preempted by the FAAAA”
(Op. 3) directly conflicts with the decisions of at least
six other courts.
The U.S. Court of Appeals for the First Circuit held
that the FAAAA preempts “Prong 2” of Massachusetts’s three-pronged law for classifying workers, which
is materially identical to Prong B of California’s ABC
Test. (Schwann v. FedEx Ground Package System, Inc.
(1st Cir. 2016) 813 F.3d 429.) In Schwann, the court
was asked to consider independent contractors hired
by FedEx to perform “first-and-last mile” pick-up and
delivery services. (Id. at p. 432.) The First Circuit held
that the Massachusetts law—although a “generally
applicable” employment law—was “incompatible” with
the FAAAA because it “related to” FedEx’s services and
routes. (Id. at pp. 437, 439.) As for services, the First
Circuit explained that the “decision whether to provide
a service directly, with one’s own employee, or to procure the services of an independent contractor is a

App. 3
significant decision . . . that implicates the way in
which a company chooses to allocate its resources and
incentivize those persons providing the service.” (Id. at
p. 438.) The Massachusetts law created “regulatory interference . . . [that] [wa]s not peripheral” because it
made “it quite difficult for carriers like FedEx to treat
individual drivers as independent contractors, rather
than employees,” and “largely foreclosed” FedEx’s
current way of doing business. (Id. at pp. 438-439,
emphases added.) As for routes, the state law would
“change the manner in which” FedEx delivered packages and alter “the [incentive-based] structure chosen
by FedEx”—changes that “simply highlight[ed] the
tangible manner in which” the law interfered with the
options available in the “free market.” (Id. at pp. 439440.)
The Massachusetts Supreme Judicial Court likewise held that the FAAAA preempts Massachusetts’
three-part test for classifying workers. (Chambers v.
RDI Logistics, Inc. (2016) 476 Mass. 95.) In Chambers,
retail companies hired independent contractors to
drive and deliver furniture. The court found that the
state law resulted in motor carriers “adopt[ing] a different manner of providing services from what they
otherwise might choose,” which “likely” would “have a
significant, if indirect, impact on motor carriers’ services” and “rais[e] the costs of providing those services.” (Id. at pp. 102-103.) The state law’s “de facto
ban” on “motor carriers wishing to use independent
contractors” created an “impermissible ‘patchwork’ of
State laws.” (Id. at p. 102.)

App. 4
Four California federal district courts have also
concluded that the FAAAA preempts the ABC Test.
(Cal. Trucking Assn v. Becerra (S.D.Cal. 2020) 433
F.Supp.3d 1154, appeal pending; B&O Logistics, Inc.
v. Cho (C.D.Cal. Apr. 15, 2019) 2019 WL 2879876;
Valadez v. CSX Intermodal Terminals, Inc. (N.D.Cal.
Mar. 15, 2019) 2019 WL 1975460; Alvarez v. XPO Logistics Cartage LLC (C.D.Cal. Nov. 15, 2018) 2018 WL
6271965.)2 These courts concluded that the ABC Test
“would require a court to look at a motor carrier’s service, determine that the [truck driver’s] service is outside the carrier’s usual course of business, and then bar
the carrier from using workers as independent contractors to perform that service,” which “pose[s] a serious potential impediment to the FAAAA’s objectives.”
(Alvarez, supra, 2018 WL 6271965, at *4.) By “requir[ing] carriers to classify all workers who performed
trucking work as employees, rather than independent
contractors,” the ABC Test has an “impermissible” relation to motor carriers’ services, prices, or routes.
(Valadez, supra, 2019 WL 1975460, at *8; see also B&O
Logistics, supra, 2019 WL 2879876 at *3 [similar].)
The U.S. Court of Appeals for the Third Circuit
also has issued a decision conflicting with the Court of
Appeal’s decision. (Bedoya v. Am. Eagle Express Inc. (3d
Cir. 2019) 914 F.3d 812.) Prong B of New Jersey’s ABC
Two judges in another district have disagreed. (See Henry
v. Central Freight Lines, Inc. (E.D.Cal. June 13, 2019) 2019 WL
2465330, at *7; W. States Trucking Assn. v. Schoorl (E.D.Cal.
2019) 377 F.Supp.3d 1056, 1070, appeal voluntarily dismissed.)
The Ninth Circuit is presently considering this issue. (See Cal.
Trucking Assn. v. Becerra (9th Cir.) Nos. 20-55106, 20-55107.)
2

App. 5
test provides that a worker is an employee unless she
performs work “outside the [employer’s] usual course
of business . . . or [performs such service] outside of all
the places of business of [the employer].” (Id. at p. 824,
quoting N.J. Stat. Ann. § 43:21-19(i)(6)(B), emphasis
added, alterations in original.) The Third Circuit concluded that the FAAAA does not preempt the New Jersey law, but expressly distinguished New Jersey’s law
from the Massachusetts statute addressed by the First
Circuit in Schwann and by the Massachusetts Supreme Judicial Court in Chambers. (Ibid.) The New
Jersey test’s “or” clause is pivotal. As the Third Circuit
explained, it provides motor carriers a viable “alternative method for reaching independent contractor
status—that is, by demonstrating that the worker provides services outside of the putative employer’s places
of business.” (Ibid.) Because truck drivers provide their
services on highways, not the employer’s place of business, New Jersey’s law categorically exempts truck
drivers from prong B of its ABC test. Absent that provision —a provision California’s ABC Test lacks—the
Third Circuit signaled that the FAAAA would have
preempted the law. (Ibid.)
The Court of Appeal’s holding that the FAAAA
does not preempt the ABC Test, as well as its reasoning
behind that decision, squarely contradicts the holdings
of these courts.
*

*

*

App. 6
CONCLUSION
Defendants respectfully request that this Court
grant the Petition for Review.
DATED: December 21, 2020
Respectfully submitted,
GIBSON, DUNN &
CRUTCHER LLP
By: /s/ Joshua S. Lipshutz
Joshua S. Lipshutz
Attorney for Real Parties in
Interest Cal Cartage
Transportation Express, LLC; K&R
Transportation California, LLC;
and CMI Transportation, LLC

App. 7
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondurm.com
CHRISTOPHER D. DUSSEAULT, SBN 177557
cdusseault@gibsondunn.com
MICHELE L. MARYOTT, SBN 191993
mmaryott@gibsondurm.com
DHANANJAY S. MANTHRIPRAGADA, SBN 254433
dmanthripragada@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone: 213.229.7000
Facsimile: 213.229.7520
Attorneys for Defendant
K&R TRANSPORTATION CALIFORNIA, LLC
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
THE PEOPLE OF
THE STATE
OF CALIFORNIA,
Plaintiff,

CASE NO. BC689322
[Related to Case Nos.
BC689320 and BC689321]

DEFENDANT K&R
v.
TRANSPORTATION
CALIFORNIA, LLC’S
K&R TRANSPORTATION
RESPONSE TO PLAINCALIFORNIA LLC,
TIFF’S SECOND SET OF
KRT2931, LLC and
SPECIALLY PREPARED
DOES 1-50, inclusive,
INTERROGATORIES
Defendants.
(Filed Oct. 1, 2019)

App. 8
Assigned for all purposes to:
The Hon.
William F. Highberger
Dept: 10
Action Filed: January 8, 2018
Trial Date: None set
PROPOUNDING PARTY: THE PEOPLE OF THE
STATE OF CALIFORNIA
RESPONDING PARTY: DEFENDANT K&R TRANSPORTATION CALIFORNIA, LLC
SET NO.: TWO (2)
*

*

*

SPECIAL INTERROGATORY NO. 45:
To the extent that you contend any DRIVER has
performed work that falls outside the usual course of
YOUR business for purposes of the test articulated
in Dynamex Operations West, Inc. v. Superior Court
(2018) 4 Cal. 5th 903, state all factual bases for that
contention.
RESPONSE TO SPECIAL INTERROGATORY
NO. 45:
KRTC restates and incorporates the Preliminary
Statement and General Objections as though fully set
forth in this response. KRTC objects to this Interrogatory as overly broad and burdensome to the extent it is
unlimited in time. KRTC objects to this Interrogatory
to the extent that it calls for a legal conclusion. KRTC

App. 9
objects to this Interrogatory to the extent that it seeks
information that is neither relevant to the subject matter of the litigation nor reasonably calculated to lead
to the discovery of admissible evidence, see Cal. Code
Civ. Proc. § 2017.010, or information of such marginal
relevance that its probative value is substantially outweighed by the burden imposed on KRTC in having to
search for and provide such information. KRTC further
objects to this Interrogatory that it calls for the disclosure of information protected by the attorney work
product doctrine, the attorney-client privilege, and any
other applicable privilege. KRTC objects to this Interrogatory as vague, ambiguous, overly broad and unduly burdensome. Further, the terms “DRIVER” and
“YOUR” render this Interrogatory vague, ambiguous,
overly broad, and unduly burdensome. KRTC also objects to the Interrogatory as unduly burdensome, harassing, and duplicative in light of KRTC’s Motion in
Limine. KRTC also objects to this Interrogatory to the
extent that it seeks confidential or proprietary business information. KRTC further objects to the Interrogatory to the extent it seeks information not in the
possession, custody, or control of KRTC. KRTC objects
to this Interrogatory to the extent it calls for information not presently known to or in the possession of
KRTC.
Subject to and without waiving said objections,
and without conceding that Dynamex applies in this
action, KRTC responds as follows: KRTC manages clients’ various cargo needs, including transloading cargo

App. 10
between different forms of transportation, warehousing, moving cargo from one location to another, and
other operations. KRTC does not own any trucks, or
other vehicles used for cargo transport. When a client
chooses to have its cargo moved by truck, KRTC contracts with independent owner-operators to haul the
client’s cargo via truck. The owner-operators who
contract with KRTC own and run independent
trucking businesses. Discovery is ongoing, and KRTC
reserves the right to supplement and amend this response as discovery progresses.
*

*

*

DATED: October 1, 2019
GIBSON, DUNN &
CRUTCHER LLP
By: /s/ Dhananjay S. Manthripragada
Dhananjay S. Manthripragada
Attorneys for Defendant
K&R TRANSPORTATION
CALIFORNIA, LLC

VERIFICATION
I, Jorge Fernandez, declare:
I make this verification on behalf of Defendant
K&R Transportation California, LLC and am authorized to do so. I have read the foregoing Response to
Plaintiff ’s Specially Prepared Interrogatories, Set No.

App. 11
Two and know the contents thereof. To the extent I
have personal knowledge of the matters set forth there
in, the same are true and correct. insofar as said materials are composite of the information of several individuals, I do not have personal knowledge concerning
all of the information contained in said responses, but
I am informed and believe that the information set
forth therein is true and correct.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct. Executed this 1st day of October, 2019 at Long
Beach, California.
/s/ Jorge Fernandez
Jorge Fernandez

App. 12
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondurm.com
CHRISTOPHER D. DUSSEAULT, SBN 177557
cdusseault@gibsondunn.com
MICHELE L. MARYOTT, SBN 191993
mmaryott@gibsondurm.com
DHANANJAY S. MANTHRIPRAGADA, SBN 254433
dmanthripragada@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone: 213.229.7000
Facsimile: 213.229.7520
Attorneys for Defendant
CAL CARTAGE TRANSPORTATION EXPRESS, LLC
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
THE PEOPLE OF
THE STATE
OF CALIFORNIA,
Plaintiff,
v.
CAL CARTAGE TRANSPORTATION EXPRESS,
LLC, CCX2931, LLC and
DOES 1-50, inclusive,
Defendants.

CASE NO. BC689320
Related Cases: BC689321,
BC689322, 19STV19291,
19STCV0377 BC689321]
DEFENDANTS’ MOTION
IN LIMINE RE PREEMPTION AND NONRETROACTIVITY
OF ABC WORKER
CLASSIFICATION TEST
(Filed Sep. 30, 2019)

App. 13
Assigned for all purposes to:
Hon. William F Highberger
Dept: SSC-10
Action Filed: Jan. 8, 2018
Trial Date: May 27, 2019
(New Entity K&R Only)
HEARING
Date: November 6, 2019
Time: 10:00 A.M.
Dept.: SSC-10
*

*

*

Assuming the truth of these allegations,3 the ABC
Test as Plaintiff proposes to apply it is preempted by
the FAAAA because it would categorically prohibit a
motor carrier business from utilizing independent contractors to move cargo by truck, and would force them
to enter into employer-employee relationships.
*
VII.

*

*

CONCLUSION

For the foregoing reasons, the Court should grant
Defendants’ motion in limine and hold that the worker
classification test set forth in S. G. Borello & Sons,
Inc. v. Department of Industrial Relations (1989)

Defendants reserve the right to challenge Plaintiff ’s characterization of the nature of their businesses, and assume these
allegations as true solely for the purpose of this motion regarding
the legal issue of which worker classification test applies to Plaintiff ’s claims as pled.
3

App. 14
48 Cal.3d 341 applies to Plaintiff ’s misclassificationbased claims. If the Court instead applies the ABC
Test, it should do so prospectively only.
DATED: September 30, 2019
GIBSON, DUNN &
CRUTCHER LLP
By: /s/ Joshua S. Lipshutz
Joshua S. Lipshutz
Attorneys for Defendant
CAL CARTAGE
TRANSPORTATION
EXPRESS, LLP
DATED: September 30, 2019
SCOPELITIS, GARVIN, LIGHT,
HANSON & FEARY, LLP
By: /s/ Christopher C. McNatt, Jr.
Christopher C. McNatt, Jr.
Attorneys for Defendant
CCX2931, LLC

App. 15
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
DEPARTMENT 10
HON. WILLIAM E. HIGHBERGER, JUDGE
JUAN JOSE RODRIGUEZ,

)
)
PLAINTIFF(S),
)
VS.
)
K&R TRANSPORTATION, LLC, )
)
DEFENDANT(S).
)
)
AND ALL RELATED CASES. )
)

CASE NO.
19STCV03772

REPORTER’S TRANSCRIPT
OF ORAL PROCEEDINGS
WEDNESDAY, JULY 31, 2019
APPEARANCES:
FOR THE PLAINTIFFS
JUAN JOSE RODRIGUEZ
AND RAUL LLAMAS:
GOMEZ LAW GROUP
BY: ALVIN GOMEZ, ESQ.
2725 JEFFERSON STREET
SUITE 7
CARLSBAD, CALIFORNIA 92008
(760) 720-5213
(APPEARING VIA COURT CALL.)

App. 16
FOR THE DEFENDANTS:
SCOPELITIS GARVIN LIGHT
HANSON & FEARY
BY: CHRISTOPHER MCNATT JR., ESQ.
BY: MEGAN E. ROSS, ESQ.
2 NORTH LAKE AVENUE
SUITE 560
PASADENA, CALIFORNIA 91101
(626) 795-4700
(APPEARANCES CONTINUED ON THE FOLLOWING PAGE.)
REPORTED BY:
KEVIN A. ROLDAN, CSR 13463
OFFICIAL REPORTER PRO TEMPORE
APPEARANCES CONTINUED:
FOR THE PLAINTIFF
THE PEOPLE OF THE
STATE OF CALIFORNIA:
CITY OF LOS ANGELES
BY: CHRISTOPHER MUNSEY, ESQ.
BY: DANIELLE GOLDSTEIN, ESQ.
200 NORTH SPRING STREET
14TH FLOOR
LOS ANGELES, CALIFORNIA 90012
(213) 978-1846
FOR THE DEFENDANTS:
GIBSON, DUNN & CRUTCHER LLP
BY: DHANANJAY MANTHRIPRAGADA, ESQ
BY: JESSICA CULPEPPER, ESQ.
BY: JOSHUA LIPSHUTZ, ESQ.
333 SOUTH GRAND AVENUE
LOS ANGELES, CALIFORNIA 90071
(213) 229-7000

App. 17
*

*

*

[89] MR. MUNSEY: YOUR HONOR, I
HAVE THE LANGUAGE IN FRONT OF ME, AND I’M
HAPPY TO READ IT. UNDER DYNAMEX PRONG C
IS, QUOTE, “THE WORKER IS CUSTOMARILY ENGAGED IN AN INDEPENDENTLY ESTABLISHED
TRADE, OCCUPATION OR BUSINESS OF THE
SAME NATURE AS THE WORK PERFORMED.” UNDER BORELLO, THERE’S A CORRESPONDING
FACTOR, QUOTE, “WHETHER ONE PERFORMING
SERVICES IS ENGAGED IN A DISTINCT OCCUPATION OR BUSINESS.”
THE COURT: SO, FOR DISCOVERY PURPOSES, IT’S THE SAME QUESTION AS DEPOSITION. I DON’T KNOW WHY YOU’RE CALLING IN
FROM A DEPOSITION TO TALK TO ME ABOUT
THAT. BORELLO – EXCUSE ME, DYNAMEX PRONG
B IS NEW, AND YOU DON’T FIND IT IN BORELLO.
THAT’S WHY IT GIVES CALIFORNIA EMPLOYERS
HIVES, BECAUSE IT’S A NEW AND UNIQUE TEST
THAT’S IMPOSSIBLE TO MEET SO OFTEN.
MR. MANTHRIPRAGADA: AND I COMPLETELY AGREE, YOUR HONOR, AND I THINK
WHEN I STARTED, I WAS –
THE COURT: UNLESS YOU COACH
YOUR WITNESS TO BE A PHILOSOPHER AND SAY,
“I’M REALLY NOT A TRUCK COMPANY. I’M A COMPUTER LOGISTICS FACILITATOR FOR PEOPLE
TO MOVE TRADE AROUND THE PLANET, AND I
DON’T KNOW ANYTHING ABOUT SHIPPING,”

App. 18
AND SOME KIND OF WORD PICTURE THAT SAYS,
“I’M [90] NOT WHAT I SEEM TO BE.” YOU HARDLY
NEED TO GET IT OUT OF THE MOUTH OF THE
DEFENDANT. YOU JUST HAVE TO SORT OF
STAND AT THE GATE OF THE COURT AND
WATCH THE TRUCKS COMES AND GO AND FIGURE OUT WHAT THE BUSINESS IS, WHICH
SEEMS TO BE MOVING CARGO.
MR. MUNSEY: YOUR HONOR, I WOULD
ALSO NOTE THAT WE BELIEVE THAT THE DYNAMEX PRONG B IS PART OF THE BORELLO
TEST. WHAT MAKES DYNAMEX NEW IS MAKING
THE ISSUE DISPOSITIVE, BUT IF YOU LOOK AT
BORELLO –
THE COURT: WELL, IT’S THE CONVERSE OF C, WHETHER YOU REALLY LOOK LIKE
AN INDEPENDENT BUSINESS WITH MULTIPLE
CUSTOMERS VERSUS BEING THE MEAT AND
POTATOES OF WHICH YOU GO ABOUT EVERY
DAY.
MR. MUNSEY: I THINK THAT’S CORRECT, YOUR HONOR, BUT BORELLO ALSO SEPARATELY STATES A FACTOR WHETHER THE
WORK IS PART OF THE REGULAR BUSINESS OF
THE PRINCIPAL. THAT SEEMS TO US TO BE THE
SAME TEST.
MR. MANTHRIPRAGADA:
OH, GO AHEAD.

I DISAGREE.

App. 19
MR. LIPSHUTZ: I WAS GOING TO SAY,
THE DIFFERENCE IS REALLY HOW DISPOSITIVE
PRONG B IS AND THE FACT THAT COURTS HAVE
SAID IN ORDER TO EVALUATE PRONG B, YOU REALLY NEED TO DIVE INTO A DEFENDANT’S
BUSINESS. YOU OFTEN LOOK AT THEIR FINANCIALS IN A WAY THAT YOU NEVER DID UNDER
BORELLO. CERTAINLY A 30(B)6 WITNESS FROM
THE ENTITIES, IF WE’RE TALKING ABOUT PRONG
B OF DYNAMEX, MIGHT BE CALLED ON TO ANSWER QUESTIONS ABOUT THE COMPANY’S FINANCIALS, WHAT PERCENTAGE OF THE BUSINESS –
THE COURT: WELL, THIS IS WHERE
THE DEFENSE PART [91] WILL HAVE TO GO TO
TRY TO SURVIVE ON THE FACE OF WHAT APPEARS TO BE THE IMPOSSIBLE TEST CREATED
BY DYNAMEX THAT LOOKS LIKE YOU SHOULD
HAVE FAILED UNTIL CREATIVE LAWYERS FIND
A WAY TO START PHILOSOPHIZING ABOUT IT, AS
I INDICATED, BUT IT MAY BE AND SAY, “WELL,
MOST OF MY BUSINESS IS REALLY MADE ON LICENSING MY TRADEMARK. IT’S NOT MOVING
THE CARGO SOMEHOW. AND SO, REALLY, I’M A
TRADEMARK BUSINESS, AND I MOVE CARGO INCIDENTALLY BECAUSE HISTORICALLY I MOVE
CARGO. BUT THE HEART AND SOUL OF THE
BUSINESS IS MY LICENSE FEES.”
MR. LIPSHUTZ: THAT’S CORRECT, YOUR
HONOR, AND THAT’S WHY IT MATTERS NOT
ONLY TO DISCOVERY. IT MATTERS TO THE
SCOPE OF A 30(B)6. THERE ARE CERTAIN TOPICS

App. 20
THAT YOU WOULDN’T EVER DIVE INTO UNDER
BORELLO THAT YOU NOW SUDDENLY BECOME
QUITE RELEVANT UNDER DYNAMEX.
IT ALSO MATTERS GREATLY, FRANKLY, TO
ADR AND SETTLEMENT DISCUSSIONS. I MEAN,
WE’VE HEARD, NOT ONLY FROM THE PEOPLE
BUT FROM OTHER OPPOSING COUNSEL IN
CASES, THAT THEY’RE NOT WILLING TO SETTLE
IF DYNAMEX IS ON THE TABLE BECAUSE THEY
KNOW – YOU KNOW, THEY KNOW WHAT PRONG
B MEANS FOR THEM, AND THEY KNOW HOW
CREATIVE LAWYERS HAVE TO BE ON THE DEFENSE IN ORDER TO GET AROUND IT. SO I –
THE COURT: HAVE TO BE PRETTY CREATIVE. THAT’S WHY THEY’VE HIRED YOU, SO . . .
MR. LIPSHUTZ: AND, LOOK, I THINK
THAT, YOU KNOW, GOES A LONG WAY TO EXPLAINING WHY WE THINK IT’S SO IMPORTANT
TO EVALUATE THIS ISSUE EARLY. IT GOES NOT
ONLY TO DISCOVERY, TO THE SCOPE OF EXPERT
WITNESSES. DO WE [92] NEED AN EXPERT
THAT’S GOING TO TALK ABOUT WHAT LINE OF
BUSINESS WE ARE IN AND WHY LOGISTICS IS
DIFFERENT FROM SHIPPING AND WHY IT’S
BROADER? IT ACTUALLY AFFECTS QUITE A LOT
OF THE TRIAL, IN OUR VIEW, AND –
THE COURT: WELL, THAT’S YOUR PHILOSOPHY EXERCISE. AND I DON’T MEAN TO BE
PEJORATIVE. IT’S WHAT YOU HAVE TO DO IN
THE FACE OF THAT LEGAL STANDARD,

App. 21
BECAUSE NOTHING ELSE HAS ANY HOPE OF
WORKING.
MR. LIPSHUTZ: COMPLETELY UNDERSTAND, YOUR HONOR, AND IT’S ALSO WHY,
FRANKLY, THE FAAAA PREEMPTION – NOT TO
KEEP COMING BACK TO THAT ISSUE – IS SO IMPORTANT IN THE TRUCKING INDUSTRY.
THE COURT: NOW, WE DIDN’T COME UP
WITH A DATE TO HEAR THE IN LIMINE; RIGHT?
WE’VE JUST TALKED ABOUT IT IN CONCEPT.
MR. MANTHRIPRAGADA: THAT’S RIGHT,
YOUR HONOR. WE DON’T HAVE A DATE YET.
THE COURT: WELL, WHY DON’T YOU
MEET AND CONFER WITH MR. MUNSEY AND SEE
IF YOU CAN AGREE TO SOME SCHEDULE HE
MIGHT LIVE WITH. WE’LL BE TOGETHER SOON
ENOUGH ON THE 13TH AND LATER IN THE
MONTH, AND JUST BRING IT UP AGAIN, IF YOU
HAVEN’T COME UP WITH A SCHEDULE. BUT I
DO THINK WE SHOULD JUST DEAL WITH THE
FAAAA AND RETROACTIVITY AND STOP AND
NOT LORD IT UP WITH MORE COMPLEXITY.
AND THE INTERESTING QUESTION AS TO
WHO WILL TESTIFY TO WHAT IN ORDER TO
HELP MR. LIPSHUTZ WITH HIS NEW DYNAMEX
PRONG B DEFENSE, I THINK WE CAN WAIT UNTIL YOU ACTUALLY HAVE A WITNESS IN THE
ROOM AND YOU’RE SQUABBLING ABOUT THAT.
AND, FRANKLY, SINCE THE WITNESS WILL

App. 22
WANT TO PHILOSOPHIZE ABOUT ALL THIS
STUFF, I CAN’T IMAGINE WHY HE WOULDN’T BE
ANSWERING QUESTIONS, BECAUSE THEY’RE
GOING TO WANT TO GET THIS ALL OUT THERE.
THAT’S PART OF THE EXPOSITION OF WHY I’M
NOT THE BUSINESS YOU THINK I AM.
MR. LIPSHUTZ: WELL,
NAMEX IS NOT IN THE CASE.
*

*

*

NOT

IF

DY-

App. 23
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondurm.com
MAURICE SUH, SBN 147485
msuh@gibsondunn.com
CHRISTOPHER D. DUSSEAULT, SBN 177557
cdusseault@gibsondunn.com
MICHELE L. MARYOTT, SBN 191993
mmaryott@gibsondurm.com
DHANANJAY S. MANTHRIPRAGADA, SBN 254433
dmanthripragada@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone: 213.229.7000
Facsimile: 213.229.7520
Attorneys for Defendant
CAL CARTAGE TRANSPORTATION EXPRESS, LLC
[Additional counsel listed on next page]
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
THE PEOPLE OF
THE STATE
OF CALIFORNIA,
Plaintiff,
v.
CAL CARTAGE TRANSPORTATION EXPRESS,
LLC, CCX2931, LLC and
DOES 1-50, inclusive,
Defendants.

CASE NO. BC689320
[Related to Cases Nos.
BC689321 and BC689322]
DEFENDANTS’ NOTICE
OF MOTION AND MOTION TO STRIKE PORTIONS OF PLAINTIFF’S
COMPLAINT; MEMORANDUM OF POINTS
AND AUTHORITIES IN
SUPPORT THEREOF
(Filed Jun. 1, 2018)

App. 24
[Notice of Demurrer and
Demurrer; Memorandum
of Points & Authorities;
Request for Judicial Notice
and Declaration of Joshua
S. Lipshutz Filed
Concurrently Herewith]
Assigned for all purposes to:
The
Hon. John Shepard Wiley, Jr.
Dept: 9
Action Filed: Jan. 8, 2018
Trial Date: None set
HEARING
Date: August 16, 2018
Time: 10:00 A.M.
Dept.: 9
*

*

*

MEMORANDUM OF POINTS
AND AUTHORITIES
I.

OVERVIEW

“[W]hen a substantive defect is clear from the face
of a complaint . . . a defendant may attack that portion
of the cause of action by filing a motion to strike.” (PH
II v. Superior Court (1995) 33 Cal.App.4th 1680, 16821683.) Under the Code of Civil Procedure, “[t]he court
may, upon a motion . . . or at any time in its discretion
. . . [s]trike out any irrelevant, false, or improper matter inserted in any pleading.” (Code Civ. Proc., § 436.)
As explained in the demurrer concurrently filed by

App. 25
Defendants Cal Cartage Transportation Express, LLC
and CCX2931, LLC, the first cause of action in the complaint filed by the People of the State of California
should be dismissed in its entirety. However, to the extent the Court overrules the demurrer and does not
dismiss the first cause of action in its entirety, Defendants file this motion to strike in the alternative, to address two specific issues:
First, the portion of Plaintiff ’s complaint alleging
that Defendants failed to reimburse owner-operators
for business expenses and losses, in violation of Labor
Code section 2802, is preempted by federal Truth-inLeasing (“TIL”) regulations and should be stricken.
(See Valadez v. CSX Intermodal Terminals, Inc. (N.D.
Cal. Apr. 10, 2017) 2017 WL 1416883, at pp. *9-*10 [explaining that TIL regulations preempt Section 2802 reimbursement claims related to maintenance, fuel, and
insurance costs].) Plaintiff contends that Defendants
should be held liable for not covering expenses for
owner-operators related to fuel, insurance, and maintenance. (See Compl., ¶¶ 32, 52(g).) But TIL regulations specifically authorize owner-operators to enter
contracts under which they will cover such expenses.
(See 49 C.F.R. § 376.12.) Thus, Plaintiffs Section 2802
theory is barred by “obstacle preemption,” under which
“state law prohibits something permitted (but not required) by federal law, thus standing as an obstacle to
accomplishing the purposes of the federal law.” (Rodriguez v. RWA Trucking Co. (2013) 238 Cal.App.4th 1375,
1391.)

App. 26
Second, to the extent the Court decides not to dismiss Plaintiff ’s first cause of action but deems portions
of that cause of action improper and barred under the
arguments in Defendants’ demurrer—including, for
instance, a ruling that the res judicata argument is
controlling only through January 8, 2018, with some
viable claim remaining thereafter—the Court should
strike those improper portions of the complaint and
appropriately limit the complaint.
*

*

*

III. THE COURT SHOULD STRIKE
PORTIONS OF THE COMPLAINT IT RULES
IMPROPER UNDER THE ARGUMENTS
IN DEFENDANTS’ DEMURRER
For the reasons set forth in Defendants’ concurrently filed demurrer, the first cause of action should
be dismissed in its entirety. In the event, however, that
the Court finds only portions of the first cause of action
to be improper under the doctrine of res judicata – for
example, if the Court finds that res judicata precludes
the first cause of action only through January 8, 2018,
with a viable claim remaining thereafter for one or
both of Defendants – Defendants respectfully request
that the Court strike those portions of the complaint
and appropriately limit the scope of the complaint
without leave to amend.
IV.

CONCLUSION

For the foregoing reasons, the Court should grant
Defendants’ motion to strike without leave to amend.

App. 27
DATED: June 1, 2018
GIBSON, DUNN &
CRUTCHER LLP
By: /s/ Joshua S. Lipshutz
Joshua S. Lipshutz
Attorneys for Defendant
CAL CARTAGE
TRANSPORTATION
EXPRESS, LLP
DATED: September 30, 2019
SCOPELITIS, GARVIN, LIGHT,
HANSON & FEARY, LLP
By: /s/ Christopher C. McNatt, Jr.
Christopher C. McNatt, Jr.
Attorneys for Defendant
CCX2931, LLC

App. 28
1994 WIS. STAT. § 102.07
102.07 Employe defined
“Employe” as used in this chapter means:
(1) (a) Every person, including all officials, in the
service of the state, or of any municipality therein
whether elected or under any appointment, or contract
of hire, express or implied, and whether a resident or
employed or injured within or without the state. The
state and any municipality may require a bond from a
contractor to protect the state or municipality against
compensation to employes of such contractor or employes of a subcontractor under the contractor. This
paragraph does not apply beginning on the first day of
the calendar quarter beginning after the day that the
secretary files the certificate under s. 102.80(3)(a).
(b) Every person, including all officials, in the service
of the state, or of any municipality therein whether
elected or under any appointment, or contract of hire,
express or implied, and whether a resident or employed or injured within or without the state. This paragraph first applies on the first day of the calendar
quarter beginning after the day that the secretary files
the certificate under s. 102.80(3)(a).
(2) Any peace officer shall be considered an employe
while engaged in the enforcement of peace or in the
pursuit and capture of those charged with crime.
(3) Nothing herein contained shall prevent municipalities from paying teachers, police officers, fire fighters and other employes full salaries during disability,

App. 29
nor interfere with any pension funds, nor prevent payment to teachers, police officers or fire fighters therefrom.
(4) Every person in the service of another under any
contract of hire, express or implied, all helpers and assistants of employes, whether paid by the employer or
employe, if employed with the knowledge, actual or
constructive, of the employer, including minors (who
shall have the same power of contracting as adult
employes), but not including (a) domestic servants,
(b) any person whose employment is not in the course
of a trade, business, profession or occupation of the employer, unless as to any of said classes, such employer
has elected to include them. Item (b) shall not operate
to exclude an employe whose employment is in the
course of any trade, business, profession or occupation
of the employer, however casual, unusual, desultory or
isolated any such trade, business, profession or occupation may be.
(5) For the purpose of determining the number of employes to be counted under s. 102.04(1)(c), but for no
other purpose, the following definitions shall apply:
(a) Farmers or their employes working on an exchange basis shall not be deemed employes of a farmer
to whom their labor is furnished in exchange.
(b) The parents, spouse, child, brother, sister, sonin-law, daughter-in-law, father-in-law, mother-in-law,
brother-in-law, or sister-in-law of a farmer shall not be
deemed the farmer’s employes.

App. 30
(c) A shareholder-employe of a family farm corporation shall be deemed a “farmer” for purposes of this
chapter and shall not be deemed an employe of a
farmer. A “family farm corporation” means a corporation engaged in farming all of whose shareholders are
related as lineal ancestors or lineal descendants, or as
spouses, brothers, sisters, uncles, aunts, cousins, sonsin-law, daughters-in-law, fathers-in-law, mothers-inlaw, brothers-in-law or sisters-in-law of such lineal ancestors or lineal descendants.
(6) Every person selling or distributing newspapers
or magazines on the street or from house to house.
Such a person shall be deemed an employe of each
independent news agency which is subject to this
chapter, or (in the absence of such agencies) of each
publisher’s (or other intermediate) selling agency
which is subject to this chapter, or (in the absence of all
such agencies) of each publisher, whose newspapers or
magazines the person sells or distributes. Such a person shall not be counted in determining whether an
intermediate agency or publisher is subject to this
chapter.
(7) (a) Every member of any volunteer fire company
or fire department organized under ch. 213 or any
legally organized rescue squad shall be deemed an
employe of such company, department or squad. Every
such member, while serving as an auxiliary police officer at an emergency, shall also be deemed an employe
of said company, department or squad. If such company, department or squad has not insured its liability for compensation to its employes, the municipality

App. 31
or county within which such company, department or
squad was organized shall be liable for such compensation.
(b) The department may issue an order under s.
102.31(1)(b) permitting the county within which a
volunteer fire company or fire department organized
under ch. 213, a legally organized rescue squad or
an ambulance service provider, as defined in s.
146.50(1)(c), is organized to assume full liability for
the compensation provided under this chapter of all
volunteer members of that company, department,
squad or provider.
(8) (a) Except as provided in par. (b), every independent contractor is, for the purpose of this chapter, an employe of any employer under this chapter for whom he
or she is performing service in the course of the trade,
business, profession or occupation of such employer at
the time of the injury.
(b) An independent contractor is not an employe of
an employer for whom the independent contractor performs work or services if the independent contractor
meets all of the following conditions:
1. Maintains a separate business with his or her own
office, equipment, materials and other facilities.
2. Holds or has applied for a federal employer identification number.
3. Operates under contracts to perform specific services or work for specific amounts of money and under

App. 32
which the independent contractor controls the means
of performing the services or work.
4. Incurs the main expenses related to the service or
work that he or she performs under contract.
5. Is responsible for the satisfactory completion of
work or services that he or she contracts to perform
and is liable for a failure to complete the work or service.
6. Receives compensation for work or service performed under a contract on a commission or per job or
competitive bid basis and not on any other basis.
7. May realize a profit or suffer a loss under contracts
to perform work or service.
8. Has continuing or recurring business liabilities or
obligations.
9. The success or failure of the independent contractor’s business depends on the relationship of business
receipts to expenditures.
(c) The department may not admit in evidence state
or federal laws, regulations, documents granting operating authority or licenses when determining whether
an independent contractor meets the conditions specified in par. (b)1 or 3.
(8m) An employer who is subject to this chapter is
not an employe of another employer for whom the first
employer performs work or service in the course of the
other employer’s trade, business, profession or occupation.

App. 33
(9) Members of the national guard and state defense
force, when on state active duty under direction of appropriate authority, but only in case federal laws, rules
or regulations provide no benefits substantially equivalent to those provided in this chapter.
(10) Further to effectuate the policy of the state that
the benefits of this chapter shall extend and be granted
to employes in the service of the state, or of any municipality therein on the same basis, in the same manner,
under the same conditions, and with like right of recovery as in the case of employes of persons, firms or
private corporations, any question whether any person
is an employe under this chapter shall be governed by
and determined under the same standards, considerations, and rules of decision in all cases under subs. (1)
to (9). Any statutes, ordinances, or administrative regulations which may be otherwise applicable to the classes of employes enumerated in sub. (1) shall not be
controlling in deciding whether any person is an employe for the purposes of this chapter.
(11) The department may by rule prescribe classes of
volunteer workers who may, at the election of the person for whom the service is being performed, be
deemed to be employes for the purposes of this chapter.
Election shall be by endorsement upon the worker’s
compensation insurance policy with written notice to
the department. In the case of an employer exempt
from insuring liability, election shall be by written notice to the department. The department shall by rule
prescribe the means and manner in which notice of

App. 34
election by the employer is to be provided to the volunteer workers.
(12) A student in a technical college district while, as
a part of a training program, he or she is engaged in
performing services for which a school organized under ch. 38 collects a fee or is engaged in producing a
product sold by such a school is an employe of that
school.
(13) A child performing uncompensated community
service work as a result of an informal disposition under s. 48.245, a consent decree under s. 48.32 or an order under s. 48.34(9) is an employe of the county in
which the court ordering the community service work
is located. No compensation may be paid to that employe for temporary disability during the healing period.
(14) An adult performing uncompensated community
service work under s. 971.38, 973.03(3), 973.05(3) or
973.09 is an employe of the county in which the district
attorney requiring or the court ordering the community service work is located. No compensation may be
paid to that employe for temporary disability during
the healing period.
(15) A sole proprietor or partner or member electing
under s. 102.075 is an employe.
(16) An inmate participating in a work release program under s. 303.065(2) or in the transitional employment program is an employe of any employer under

App. 35
this chapter for whom he or she is performing service
at the time of the injury.

